'PuOCjC To

A. ArKv''^ 'hu^-c wu, <UvKt Offriotr? —
£>. Rj-ifian

P--CVl- AfV(,

C. CAtu>!+ Ox>V\ OijT'-io-A

ai-A

aa

Om^ _-94
----- ^ to

Ckovfk <Qi^Wi Cin

^SoJo Ark.. t&V

QA -8

WEST LAW
Walker v. Kelley
Supreme Court of Arkansas.

May 7, 2020

Not Reported in S.W. Rptr.

2020 Ark. 183

2020 WL 2214348

(Approx. 2 pages)

2020 Ark. 183
NOTICE: THIS DECISION WILL NOT APPEAR IN THE SOUTHWESTERN REPORTER.
SEE REVISED SUPREME COURT RULE 5-2 FOR THE PRECEDENTIAL VALUE OF
OPINIONS.
Supreme Court of Arkansas.

Jerry WALKER, Appellant
v.

Wendy KELLEY, Director, Arkansas Department of Correction, Appellee
No. CV-i 9-820
Opinion Delivered May 7, 2020
PRO SE APPEAL FROM THE CHICOT COUNTY CIRCUIT COURT [NO. 09CV-19-63],
HONORABLE ROBERT BYNUM GIBSON, JR., JUDGE
Attorneys and Law Firms
Jerry Walker, pro se appellant.
Leslie Rutledge, Att'y Gen., by: Jacob H. Jones, Ass't Att'y Gen., for appellee

Opinion
RHONDA K. WOOD, Associate Justice
*1 Jerry Walker appeals the denial of his pro se petition for declaratory judgment.
Walker currently serves a sentence in the Arkansas Department of Correction His
petition alleged that errors occurred during his criminal trial. We affirm because one
cannot use a declaratory-judgment action to collaterally attack a criminal conviction.
In 2003, Jerry Walker was convicted of first-degree murder and second-degree unlawful
discharge of a firearm from a vehicle; he was sentenced to an aggregate term of 960
months' imprisonment. The Arkansas Court of Appeals affirmed. Walker v. State, 91 Ark.
App. 300, 210 S.W.3d 157 (2005)(Wa/fter /). Walker filed a Rule 37 petition in the trial
court raising various postconviction issues. In 2007, the trial court denied the Rule 37
petition. Years later, this court denied Walker's request to file a belated appeal. Walker v.
State, CR-12-824 (Ark. Oct. 25, 2012)(Walker If). Walker pursued habeas relief in the *2
federal court, which was also denied. Walker v. Hobbs. 2012 WL 550563 (E.D. Ark. Feb.
21. 2012). Subsequently, Walker filed a petition for declaratory relief, which is the subject
of this appeal.
Walker's petition for declaratory judgment alleged that he was denied due process in his
criminal trial when the trial court admitted the prior testimony of an unavailable witness.
Walker further contended that this admission violated the Confrontation Clause of the
United States Constitution. Walker attached a partial transcript of the trial proceedings
that reflected defense counsel’s objection to the admission. This issue was not
challenged on direct appeal. See Walker I, 91 Ark. App. at 302. 210 S.W.3d at 158
(challenging only the admission of interspousal communication). The circuit court here
concluded that Walker’s petition sought a new trial for which declaratory relief does not
lie.

1

We have held that a criminal defendant may not use a declaratory-judgment action for the
purpose of challenging a criminal conviction. See Manning v Norris. 2011 Ark. 439 (per
curiam). A criminal defendant is required to raise any alleged errors regarding his
conviction in the trial court or on direct appeal and may not raise them in a collateral civil
proceeding. Id. A declaratory-relief action is not a substitute for an appeal of the criminal
*3 conviction. Id. To the extent this court considers these civil proceedings, such as
declaratory-judgment actions, we do so as applications for postconviction relief in those
instances in which a prisoner challenges the constitutionality of the original sentence.
Bailey v. State, 312 Ark. 180, 848 S.W.2d 391 (1993); see also Neety v. McCastlain, 2009
Ark. 189. 306 S.W.3d 424 (holding that a petition for declaratory relief was considered a

L

1

petition for postconviction relief). A circuit court’s decision granting or denying
postconviction relief will not be reversed unless it is clearly erroneous. Douthitt v Kelley.
2019 Ark. 404, 590 S.W.3d 734. A finding is clearly erroneous when the appellate court
after reviewing the entire evidence is left with the definite and firm conviction that a
mistake has been committed. Id.
In the present matter, Walker’s petition reargued an evidentiary issue that was raised at
his criminal trial but waived on direct appeal. A declaratory-judgment action provides no
relief on these grounds, and Walker has already exhausted his postconviction remedies.
The circuit court did not clearly err when it denied Walker’s petition for declaratory
judgment.
Affirmed.
All Citations
Not Reported in S.W. Rptr., 2020 Ark. 183, 2020 WL 2214348

~
Footnotes
1

The circuit court's order did not address Walker’s petition to proceed in
forma pauperis but instead addressed the merits of the underlying petition.
This court considers this as if the circuit court determined Walker was a
pauper and proceeded to consider and deny Walker relief on the merits of
the petition for declaratory relief. See Jones v. Ross, 2019 Ark. 283.

End of
Document

\Atestlaw Next. !t> 2020 Thomson Reuters

© 2020 Thomson Reuters, No claim to original U.S. Government Works.

tiSS THOMSON Revreas

Thomson Reuters i^nofproviding legal advice

A

Si
i

for

Ark w'ls-fcs iovtem^Coofl-

ft3

OFFICE OF THE CLERK
ARKANSAS SUPREME COURT
625 MARSHALL STREET
LITTLE ROCK, AR 72201

JUNE 18, 2020

RE: SUPREME COURT CASE NO. CV-19-820
JERRY WALKER V. WENDY KELLEY, DIRECTOR, ARKANSAS DEPARTMENT OF
CORRECTION

THE ARKANSAS SUPREME COURT ISSUED THE FOLLOWING ORDER TODAY IN THE
ABOVE STYLED CASE:
“APPELLANT’S PRO SE PETITION FOR REHEARING PURSUANT TO RULE 2-3 IS
DENIED.”
SINCERELY.

STACEY PECTOL, CLERK
CC: JERRY WALKER
JACOB H. JONES, ASSISTANT ATTORNEY GENERAL
CHICOT COUNTY CIRCUIT COURT
(CASE NO. 09CV-19-63)

*

r

r'

“

\

2013 AUG 15 AH 9:58
JOSEPHINE GRIFFIN
CHICOT CO. CIRCUIT CLERK:

IN THE CIRCUIT COURT OF CHICOT COUNTY, ARKANSAS
CIVIL DIVISION
/

JERRY WALKER, ADC#124248
VS.

PETITIONER

NO. CV-2019-63-3

WENDY KELLEY,
ADC - DIRECTOR

RESPONDENT

ORDER DENYING PETITION FOR DECLARATORY JUDGMENT
As best this Court can tell by reviewing Petitioner’s pleadings, Petitioner is
seeking a new trial and using the Declaratory Judgment Act to describe.
PETITION DENIED.
The Clerk is directed to provide a copy of this order to all parties.
IT IS SO ORDERED this 13 day of August, 2019.

ROBERT BYNUM GIBSON, JR.
CIRCUIT JUDGE

cc:

Petitioner
Respondent
TCA

L_J

